No. 19-361
In the

Supreme Court of the United States
RENADO SMITH AND RICHARD DELANCY,
Petitioners,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Eleventh Circuit

BRIEF FOR AMICUS CURIAE THE
CONSTITUTION PROJECT AT THE
PROJECT ON GOVERNMENT OVERSIGHT,
IN SUPPORT OF PETITIONERS
Kevin B. Muhlendorf
Counsel of Record
Bert W. Rein
Tatiana Sainati
Michelle B. Bradshaw
Wiley Rein LLP
1776 K Street NW
Washington, DC 20006
(202) 719-7000
kmuhlendorf@wileyrein.com
Counsel for Amicus Curiae The
Constitution Project at the Project
On Government Oversight
291897

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . .  iii
INTEREST OF THE AMICUS CURIAE . . . . . . . . . . . 1
INTRODUCTION AND
SUMMARY OF ARGUMENT  . . . . . . . . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
I.

Defenda nt s’ Right t o Con f ront
A d ve r s e W it n e s s e s i n C ou r t i s a
Constitutional Guarantee Deserving the
Highest Protections . . . . . . . . . . . . . . . . . . . . . . . . 4

II. The Current Good Faith Standard Governing
the Use of Deposition Testimony in Criminal
Trials Does not Adequately Protect This
Essential Sixth Amendment Right  . . . . . . . . . . . 7
III. This Court Should Grant Cer tiorar i
to Apply the Well-Established Timely
Disclosure Jurisprudence Under Brady
to Enhance the Confrontation Clause’s
Ambiguous Good Faith Standard  . . . . . . . . . . . 10
A. T he Cou r t ’s Br a dy T i mel i ne s s
Ju r i s p r u d e n c e i s Pa r t i c u l a r l y
Illustrative in Light of the Similarities
Between the Disclosure Requirement
and the Right of Confrontation . . . . . . . . . . 11

ii
Table of Contents
Page
B. B r a d y ’ s T i m e l y D i s c l o s u r e
Requirement Provides a Critical
Metric for Assessing Good Faith Under
the Confrontation Clause  . . . . . . . . . . . . . . 12
C. Clarifying the Good Faith Standard
t o I nc lude a T i me ly Not ic e
Requi rement Would Streng then
the Protections the Confrontation
Clause was Meant to Ensure  . . . . . . . . . . . 14
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  17

iii
TABLE OF CITED AUTHORITIES
Page
Cases
Barber v. Page,
390 U.S. 719 (1968)  . . . . . . . . . . . . . . . . . . . . . . . passim
Brady v. Maryland,
373 U.S. 83 (1963)  . . . . . . . . . . . . . . . . . . . . . . . . passim
Brumley v. Wingard,
269 F.3d 629 (6th Cir. 2001) . . . . . . . . . . . . . . . . . . . . . 8
California v. Green,
399 U.S. 149 (1970)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Cook v. McKune,
323 F.3d 825 (10th Cir. 2003) . . . . . . . . . . . . . . . . . . . . 8
Crawford v. Washington,
541 U.S. 36 (2004) . . . . . . . . . . . . . . . . . . . . . . . . passim
Greene v. McElroy,
360 U.S. 474 (1959)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Hardy v. Cross,
565 U.S. 65 (2011)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Idaho v. Wright,
497 U.S. 805 (1990) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Leka v. Portuondo,
257 F.3d 89 (2d Cir. 2001) . . . . . . . . . . . . . . . . . . . 12, 13

iv
Cited Authorities
Page
Maryland v. Craig,
497 U.S. 836 (1990) . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Mattox v. United States,
156 U.S. 237 (1895) . . . . . . . . . . . . . . . . . . . . . . .  6, 7, 16
McCandless v. Vaughn,
172 F.3d 255 (3d Cir. 1999) . . . . . . . . . . . . . . . . . . . . . . 8
Michigan v. Bryant,
562 U.S. 344 (2011)  . . . . . . . . . . . . . . . . . . . . . . . . . 9, 15
Ohio v. Roberts,
448 U.S. 56, abrogated on other grounds by
Crawford v. Washington, 541 U.S. 36 (2004) . . . 14, 16
In re Oliver,
333 U.S. 257 (1948) . . . . . . . . . . . . . . . . . . . . . . . . . . 4, 5
Pointer v. Texas,
380 U.S. 400 (1965) . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Turner v. Louisiana,
379 U.S. 466 (1965) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
United States v. Bagley,
473 U.S. 667 (1985)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
United States v. Calderón,
578 F.3d 78 (1st Cir. 2009), cert. denied,
130 S. Ct. 1107 (2010)  . . . . . . . . . . . . . . . . . . . . . . . 4, 12

v
Cited Authorities
Page
United States v. Inadi,
475 U.S. 387 (1986)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
United States v. Johnson,
108 F.3d 919 (8th Cir. 1997) . . . . . . . . . . . . . . . . . . 8, 15
United States v. Lynch,
499 F.2d 1011 (D.C. Cir. 1974)  . . . . . . . . . . . . . . . . . . . 8
United States v. Rivera,
859 F.2d 1204 (4th Cir. 1988) . . . . . . . . . . . . . . . . . 8, 15
United States v. Siddiqui,
235 F.3d 1318 (11th Cir. 2000) . . . . . . . . . . . . . . . . . . 16
United States v. Smith,
928 F.3d 1215 (11th Cir. 2019)  . . . . . . . . . . . . . . . . 8, 15
United States v. Yida,
498 F.3d 945 (9th Cir. 2007) . . . . . . . . . . . . . . . . . . 8, 15
Weatherford v. Bursey,
429 U.S. 545 (1977) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Other Authorities
U.S. Const. amend. VI . . . . . . . . . . . . . . . . . . . . . . . passim
Sup. Ct. R. 37.6 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

1
INTEREST OF THE AMICUS CURIAE1
The Constitution Project at the Project On Government
Oversight is a nonpartisan nonprofit organization
that seeks solutions to contemporary constitutional
issues through scholarship and public education. One
of The Constitution Project’s key areas of focus is the
constitutional imperative of procedural fairness and due
process in the criminal justice system and particularly at
trial. The Constitution Project is deeply concerned with
the preservation of our fundamental constitutional rights
and guarantees and ensuring they are respected and
enforced by all three branches of government.
The Constitution Project regularly files amicus briefs
in this Court and other courts in cases, like this one,
that implicate its views on constitutional issues, in order
to better apprise courts of the importance and broad
consequences of those issues. The Constitution Project has
particular expertise, knowledge, and interest in the fair
administration of criminal law, consistent with the United
States Constitution. The Constitution Project’s work and
mission bear directly on the issue of confrontation and
proof at both trial and sentencing, particularly in capital
proceedings. Amicus has filed this brief to highlight the
need for the Court to resolve the lower courts’ incongruent
application of the good faith standard that has deprived
defendants like Petitioners of their Confrontation Clause
rights at trial.
1. Pursuant to Supreme Court Rule 37.6, amicus affirms
that no counsel for a party authored this brief in whole or in part,
and that no person other than amicus curiae, its members or
its counsel made a monetary contribution to its preparation or
submission. The parties have consented to the filing of this brief.

2
INTRODUCTION AND
SUMMARY OF ARGUMENT
The government’s pursuit of criminal charges subjects
defendants to the threat of deprivation of life, liberty, and
property under law. To ensure that the criminal justice
system afforded defendants “due process,” and cognizant
of the tyrannical history of the English Star Chamber, the
drafters of the Sixth Amendment provided defendants
a right to a public jury trial in which they would face
known charges, have the ability to confront accusing
witnesses, and use the power of the court to command
the presence of witnesses favorable to their cause. The
right of confrontation has been held to include both the
right to cross-examine adverse witnesses and to have a
jury determine their credibility through live testimony.
While the language of the Sixth Amendment is
absolute, this Court has acknowledged that there may
be situations where witnesses whose previous sworn
testimony was subject to cross-examination by the
defense cannot be available at trial. Recognizing that
the interests of justice and realities of criminal law
administration sometimes are at odds with an absolute
right to cross-examine at trial, courts, including this one,
interpreting the Sixth Amendment have established a
rule of necessity. This rule provides that the government
may use a witness’s out-of-court testimony only if the
government adequately demonstrates that the witness
is unavailable. This rule reflects and preserves “the
Framers’ preference for face-to-face accusation,” while at
the same time promoting the interests of the citizenry in
having effective criminal trials. Idaho v. Wright, 497 U.S.
805, 814 (1990). To implement that balancing of interests,
the government must demonstrate unavailability despite

3
a “good-faith,” reasonable effort at locating the absent
witness. California v. Green, 399 U.S. 149, 189 n.22 (1970)
(Harlan, J., concurring).
As Petitioners argue, the application of this somewhat
vague standard of reasonableness has led to a confusing
assortment of results in the circuits. The Eleventh
Circuit’s disposition of this case highlights the danger
such an uncertain standard presents to the Confrontation
Clause. Here, the government’s attempts to locate the
missing witness were lackluster. The prejudice Petitioners
suffered from this unreasonable search was exacerbated
by the absence of a clear mandate that the government
give timely notice of the witness’s unavailability.
The government candidly conceded below that it
curtailed its search for its key witness—who provided the
only direct evidence of a required element of Petitioners’
alleged crime—because it already had her qualified
deposition testimony. The government mistakenly
released the witness from custody, lost track of her prior
to trial, failed to issue a trial subpoena or seek her out
until the eve of trial, and even then neglected to undertake
the simple investigative step of typing a name into a lawenforcement database to find the witness’s location. See
Pet. App. at 103a-105a, 122a, 150a, 158a. More troubling
still, the government failed to inform the defense of its
inability to locate the witness until the day before her
scheduled testimony, well into trial. Id. at 14a.
The effective ambush the Eleventh Circuit majority
permitted in this case cannot be squared with the
g uarantees the Founders enshrined in the Si xth
Amendment. In the same way that this Court has
developed guidance for the disclosure of Brady materials,

4
the Cour t here can, and should, provide similar
timeliness guidance for the enforcement of the Sixth
A mendment’s confrontation requirement. Timely
disclosure jurisprudence under Brady imposes a clear
standard that ensures fair trial rights: enabling the
defense to make effective use of the information. See
United States v. Calderón, 578 F.3d 78, 93 (1st Cir. 2009),
cert. denied, 130 S. Ct. 1107 (2010); see also Weatherford
v. Bursey, 429 U.S. 545, 559 (1977). This case presents an
opportunity for the Court to harmonize the application of
the Confrontation Clause’s good faith standard through
the prism of Brady’s well-established body of law by
requiring the government to provide timely notice that a
witness will be unavailable for trial.
Amicus therefore urges this Court to grant certiorari
to establish a clear good faith standard. This Court’s
intervention is critical to resolve the circuit split on
implementing the good faith standard that Petitioners
identified. Amicus also believes the proposed timeliness
requirement will prevent the unavailability exception
from swallowing the confrontation rule at the heart of
the Sixth Amendment.
ARGUMENT
I.

DEF E N DA N T S ’ R IGH T T O C ON F R ON T
A DV ER SE W I T N E S SE S I N COU RT IS A
CONSTITUTIONAL GUARANTEE DESERVING
THE HIGHEST PROTECTIONS.

The Sixth Amendment establishes an integrated
bundle of rights that constitutes a larger right to an
effective defense in our system of jurisprudence. In re
Oliver, 333 U.S. 257, 272-73 (1948). These rights include

5
the right to compulsory process, the right to reasonable
notice of criminal charges, the right to be heard in court,
the right to offer testimony, the right to counsel, and the
right to examine adverse witnesses. Id. at 273.
The Confrontation Clause of the Sixth Amendment
enshrines this latter right, providing that “[i]n all criminal
prosecutions, the accused shall enjoy the right . . . to be
confronted with the witnesses against him.” U.S. Const.
amend. VI. In crafting this provision, the founding
generation drew on English common law traditions.
Crawford v. Washington, 541 U.S. 36, 43 (2004). These
traditions emphasized the importance of “live testimony
in court subject to adversarial testing” as the surest path
to truth. Id.
Nevertheless, English officials at times deviated
from this principle—abusing their powers to examine
suspects and witnesses before trial and then reproduce
the products of their examinations in court in lieu of live
testimony. Id. The practice of pretrial examination became
entrenched during the 16th-century reign of Queen Mary.
Id. The use, and abuse, of pretrial examination came to a
head during the notorious political trials of the 16th and
17th centuries. Id. at 44. Perhaps most infamous was the
treason trial of Sir Walter Raleigh in 1603. Sir Walter
Raleigh stood accused by his alleged accomplice, Lord
Cobham, who implicated him in a letter and a private
examination by the Crown’s Privy Council. Sir Walter
Raleigh demanded that the Court call his accuser before
his face. He was denied. Id.
These abuses led to a series of statutory and
judicial reforms that reinvigorated the ancient right to
confrontation, including by developing “strict rules of

6
unavailability, admitting examinations only if the witness
was demonstrably unable to testify.” Id. at 45. Despite this
progress, controversial examination techniques remained
in use, including in the American Colonies. Id. at 47.
The Colonists protested British overreach in examining
witnesses ex parte. Id. at 47-48. Thus, many states adopted
declarations of rights around the time of the Revolution
to preserve the right of confrontation. Id. at 48.
Mindful of this historical misuse of prosecutorial
and investigative authority, the Framers drafted the
Sixth A mendment as a powerful bulwark against
governmental abuse. It is thus unsurprising that this
Court has long recognized that the Sixth Amendment
right of confrontation “is an essential and fundamental
requirement for the kind of fair trial which is this country’s
constitutional goal.” Barber v. Page, 390 U.S. 719, 721
(1968). More than a century ago, this Court explained
that the “primary object” of the Sixth Amendment’s
Confrontation Clause “was to prevent depositions or ex
parte affidavits . . . being used against the prisoner in lieu
of a personal examination and cross-examination of the
witness.” Mattox v. United States, 156 U.S. 237, 242-43
(1895).
This Court has since “been zealous to protect [the right
of confrontation] from erosion.” Greene v. McElroy, 360
U.S. 474, 496-97 (1959). This preserves the constitutional
guarantee in a criminal case that evidence developed
“against a defendant shall come from the witness stand
in a public courtroom where there is full judicial
protection of the defendant’s right of confrontation, of
cross-examination, and of counsel.” Turner v. Louisiana,
379 U.S. 466, 472-73 (1965) (emphasis added). The right
to confront an adverse witness face-to-face in open

7
court allows for a searching “personal examination” of
the witness. This ensures that the jury can “look at [the
witness] and judge by his demeanor upon the stand and
the manner in which he gives his testimony whether he is
worthy of belief.” Mattox, 156 U.S. at 242-43.
However, this Court has also acknowledged that
competing interests may in select circumstances weigh in
favor of admitting out-of-court testimony. See id. at 243.
In Mattox, the Court explained that “general rules of law
of this kind [i.e., the right to confront adverse witnesses
in open court], however beneficent in their operation and
valuable to the accused, must occasionally give way to
considerations of public policy and the necessities of the
case.” Id. (emphasis added).
To balance the right of courtroom confrontation
against the realities of trial, this Court cabined the
exception to confrontation with a rule of necessity.
Pursuant to this rule, the prosecution may use out-of-court
testimonial evidence only if a witness is “unavailable” to
appear in open court. And a witness is unavailable only
if “the prosecutorial authorities have made a good-faith
effort to obtain [the witness’s] presence at trial.” Barber,
390 U.S. at 724-25.
II. THE CURRENT GOOD FAITH STANDARD
GOVERNING THE USE OF DEPOSITION
TESTIMONY IN CRIMINAL TRIALS DOES NOT
ADEQUATELY PROTECT THIS ESSENTIAL
SIXTH AMENDMENT RIGHT.
As Petitioners rightly identify, the Eleventh Circuit’s
opinion highlights the deep division in the circuits on
how to assess good faith to establish unavailability: some

8
courts improperly permit the government to curtail its
search for a trial witness because it already has that
witness’s deposition. That level of effort, acceptable in
the Eleventh, Ninth, Eighth, and Fourth Circuits, would
be rejected by courts in the First, Tenth, Sixth, Third,
and D.C. Circuits. Compare United States v. Smith, 928
F.3d 1215 (11th Cir. 2019), and United States v. Yida, 498
F.3d 945 (9th Cir. 2007), and United States v. Johnson,
108 F.3d 919 (8th Cir. 1997), and United States v. Rivera,
859 F.2d 1204 (4th Cir. 1988), with Cook v. McKune, 323
F.3d 825 (10th Cir. 2003), and Brumley v. Wingard, 269
F.3d 629 (6th Cir. 2001), and McCandless v. Vaughn, 172
F.3d 255 (3d Cir. 1999), and United States v. Lynch, 499
F.2d 1011 (D.C. Cir. 1974). The confusion in the application
of the current good faith standard leaves defendants and
the prosecution without clear guidance on when deposition
testimony will be available at trial.
Moreover, absent a timely disclosure requirement, the
current good faith standard threatens to erode essential
fair trial rights and to undermine the basic protections
enshrined in the Sixth Amendment. As this Court has
recognized, “[w]here testimonial statements are involved,”
the Sixth Amendment’s protections should not be left to
vague rules, “much less to amorphous notions.” Crawford,
541 U.S. at 61. Without clear guidance that “good faith”
includes a process element of timely disclosure, the
ambiguities inherent in the standard are ripe for abuse,
creating a perverse incentive for prosecutors to gain a
tactical advantage by relying on deposition testimony
rather than bringing key witnesses to court.
The ambiguities inherent in the current standard
exacerbate the risk of governmental overreach and

9
threaten to swallow the rule of necessity. The prosecution
has an inherent advantage in structuring criminal
trials, creating the potential for governmental abuse.
As this Court has recognized, there is a latent danger
in allowing state actors to engage in “formal, out-ofcourt interrogation of a witness to obtain evidence for
trial.” Michigan v. Bryant, 562 U.S. 344, 358 (2011). The
opportunity to cross-examine a witness, which this Court
has recognized as a pre-condition to admissibility, is a
necessary but insufficient mechanism to mitigate the risk
that the government will abuse its police powers. See id.
The right of confrontation encompasses more than the
right of cross-examination, and thus the rule of necessity
allows the government to forego producing a witness in
court only where the witness has been previously crossexamined and the witness is unavailable. See Crawford,
541 U.S. at 57 (“Even where the defendant had such an
opportunity [to adequately cross-examine a witness], we
excluded the testimony where the government had not
established the unavailability of the witness.”). This is
because “[t]he right to confrontation is basically a trial
right. It includes both the opportunity to cross-examine
and the occasion for the jury to weigh the demeanor of
the witness.” Barber, 390 U.S. at 725 (emphasis added).
A deposition does not, and cannot, replace the rigor of
cross-examination at trial, which requires witnesses
to clarify inconsistencies in deposition testimony. Live
cross-examination in front of the jury also provides an
opportunity to challenge prior testimony using facts
that have come to light since the deposition and even
through the course of the trial. For these reasons, the
“right to immediate cross-examination . . . has always
been regarded as the greatest safeguard of American

10
trial procedure.” United States v. Inadi, 475 U.S. 387, 410
(1986) (citation omitted).
Because the government has superior knowledge
and ability to secure the trial attendance of witnesses,
curtailment of defendants’ Sixth Amendment Confrontation
Clause right to in-court examination must be tempered
by a procedure that gives defendants sufficient ability
to prepare for the inability to cross-examine a witness
in front of the jury, or otherwise react in a meaningful
manner. A pre-condition to an assertion of good faith must
include sufficient notice. The government does not operate
in good faith, nor is it reasonable, when the prosecution is
permitted to conceal its efforts and failures and then rely
on deposition testimony at trial. It simply cannot have it
both ways. Permitting that type of behavior undermines
the rights to compulsory process and confrontation that
the Sixth Amendment was meant to protect.
III. THIS COURT SHOULD GRANT CERTIORARI
TO APPLY THE WELL-ESTABLISHED TIMELY
DISCLOSU RE JU RISPRU DENCE U N DER
BRADY TO ENHANCE THE CONFRONTATION
C L AU S E ’ S A M BI G U O U S G O O D FA I T H
STANDARD.
The well-established timely disclosure requirements
articulated by Brady and its progeny provide a helpful
analog for clarifying procedural requirements of the
good faith standard in a manner that will guarantee fair
criminal trials. See Brady v. Maryland, 373 U.S. 83, 87
(1963) (“Society wins not only when the guilty are convicted
but when criminal trials are fair . . . .”). Prosecutorial
reliance on the current articulation of the good faith

11
standard to secretly put minimal effort into finding an
absent witness simply because an earlier deposition exists
is “fundamentally at odds with the right of confrontation.”
See Crawford, 541 U.S. at 61. By adapting the rationale
of the timely disclosure jurisprudence under Brady, this
Court can provide a consistent and clear framework to
guide prosecutors in the Confrontation Clause context
and help all parties protect and uphold constitutional
guarantees.
A.

The Court’s Brady Timeliness Jurisprudence
is Par ticularly Illustrative in Light of
the Similarities Between the Disclosure
Requirement and the Right of Confrontation.

Like the right to confront adverse witnesses in open
court, the Brady doctrine seeks to protect the right
to a fair trial and works to defend against potential
prosecutorial abuses.
First, both Brady’s disclosure requirement under the
Fifth Amendment’s Due Process Clause and the Sixth
Amendment’s Confrontation Clause establish fundamental
constitutional safeguards essential to a fair trial. See
Pointer v. Texas, 380 U.S. 400, 403-04 (1965) (“It cannot
seriously be doubted at this late date that the right of
cross-examination is included in the right of an accused in
a criminal case to confront the witnesses against him.”);
see also United States v. Bagley, 473 U.S. 667, 675 (1985)
(Brady disclosure obligation extends to information “that,
if suppressed, would deprive the defendant of a fair trial.”).
Second, both Brady and the bundle of rights included
in the Sixth Amendment recognize the prosecution’s

12
inherent advantages in the criminal trial context, where
the defense must rely on the prosecution for information
uniquely in the government’s control. In the case of Brady
material, the defense relies on the prosecution to disclose
all favorable evidence that “is material either to guilt or to
punishment.” Brady, 373 U.S. at 87. Likewise, in the case
of deposition testimony, the defense may have to forego
the right to courtroom confrontation where a witness
is likely to be unavailable. But, in so doing, the defense
relies on the prosecution’s good faith effort to obtain the
witness’s presence at trial despite the availability of the
out-of-court deposition. See Barber, 390 U.S. at 724-25.
As with exculpatory evidence, however, the informational
imbalance requires that prosecutors provide defendants
adequate notice about a witness’s unavailability such that
defendants can make use of that information to prepare
a defense.
B. Brady’s Timely Disclosure Requirement
Provides a Critical Metric for Assessing Good
Faith Under the Confrontation Clause.
It is well-settled that prosecutors must disclose Brady
material with sufficient time for the defense to make
effective use of the information. See Calderón, 578 F.3d at
93. “[T]he longer the prosecution withholds information,
or (more particularly) the closer to trial the disclosure is
made,” the less opportunity the defense has to make use
of Brady information. Leka v. Portuondo, 257 F.3d 89, 100
(2d Cir. 2001). Timely disclosure is imperative to protect
defendants’ fair trial guarantees because “new witnesses
or developments tend to throw existing strategies and
preparation into disarray.” Id. at 101. Thus, Brady clarifies
that “[t]he opportunity for use” means an “opportunity

13
for a responsible lawyer to use the information with some
degree of calculation and forethought.” Id. at 103.
This rationale applies to using depositions of
unavailable witnesses at trial. The Confrontation
Clause “must be interpreted in a manner sensitive to its
purpose and to the necessities of trial and the adversary
process.” Maryland v. Craig, 497 U.S. 836, 837 (1990).
Here, the government notified Petitioners of its failure
to find its material witness after trial started and the
day before the witness was set to testify. See Pet. App.
at 12a-14a. In these circumstances, Petitioners could not
“use the information with some degree of calculation and
forethought,” especially because they learned this critical
information “in the midst of the pressures and paranoias
of trial.” Leka, 257 F.3d at 103.
By keeping its failures a secret, the government did
not act reasonably or in good faith. As is the case with
belatedly dumping potentially exculpatory information on
a defendant, notifying Petitioners here that a witness was
unavailable after trial started does not meet constitutional
muster. A good faith effort to locate a missing witness
should include a requirement that prosecutors notify
defendants of the witness’s potential absence in a timely
manner. This simple process enhancement to the good
faith requirement would place little burden on the
prosecution, and in no way disrupt necessary government
proceedings. But it would have enabled Petitioners to use
this information to prepare and present their case. For
example, Petitioners might have moved the trial court to
order additional actions to find the witness, undertaken
independent efforts to locate her, or exercised other Sixth
Amendment rights, such as compulsory process to secure

14
additional witnesses to counter the unavailable witness’s
deposition testimony. Instead, because the government
failed to inform Petitioners in a timely manner, all these
possibilities were needlessly hindered.
C.

Clarifying the Good Faith Standard to
Include a Timely Notice Requirement Would
Strengthen the Protections the Confrontation
Clause was Meant to Ensure.

In this case, the marshals had already mistakenly
released the material witness when the court set trial. See
Pet. App. at 122a, 150a. The prosecution learned that its
material witness was missing nearly two months before
trial. Id. at 167a. Once the prosecution learned the witness
was missing, it clearly should have taken additional steps to
find her, but the current standard encourages prosecutors
to do less. Thus, here, the prosecution waited until the
eve of trial to make a last-ditch, half-hearted attempt to
locate the witness through a minimal number of calls and
text messages to her boyfriend. Id. at 129a-131a. And the
prosecution believed it was permissible to engage in this
pro forma effort because it did not have, under current
Confrontation Clause jurisprudence, an obligation to
notify the defense of the status of this search, or its intent
to use the deposition testimony, prior to trial. “It is difficult
to believe that the State would have been so derelict in
attempting to secure the witness’ presence at trial had it
not had her favorable [deposition] testimony upon which to
rely in the event of her ‘unavailability.’” Ohio v. Roberts,
448 U.S. 56, 79-80 (Brennan, J. dissenting), abrogated on
other grounds by Crawford v. Washington, 541 U.S. 36
(2004). “The right of confrontation may not be dispensed
with so lightly.” Id. at 82.

15
The deficiencies in the current understanding of
the good faith test have allowed the Eleventh, Ninth,
Eighth, and Fourth Circuits to find that the government is
permitted to put less effort into locating a witness for trial
if prior deposition testimony is available. See Smith, 928
F.3d 1215; see also Yida, 498 F.3d 945; Johnson, 108 F.3d
919; Rivera, 859 F.2d 1204. In other words, a reasonable
effort requires less exertion if the government has already
deposed the witness. This position encourages prosecutors
to engage in “formal, out-of-court” depositions “to obtain
evidence for trial,” and then put only minimal effort into
subsequently locating deposed witnesses to avoid having
a deponent appear in open court, thereby preventing a
defendant from cross-examining the witness in front of
the jury. See Bryant, 562 U.S. at 358. If the government
need not even take the simple step of running a name
through a law-enforcement database to locate a witness
merely because the witness was previously deposed,
the government has significant incentive to replace
live witness testimony with a pre-recorded deposition
whenever possible.
A requirement that the government timely notify
defendants of the status of its efforts will act as a governing
mechanism on this perverse incentive—encouraged by the
inconsistent applications of the current rule—to minimize
efforts to locate “unavailable” witnesses. It will do so in
two ways. First, a timely notice requirement will permit
defendants to react to that information in their trial
preparation, thus lessening the tactical advantage of late
notice. Second, it will give trial courts the opportunity to
better administer their cases. They will be able to avoid
unfair surprises, like here, where the government’s lastminute notice put the trial court in the unenviable position

16
of having to balance limiting Petitioners’ Confrontation
Clause rights with upsetting a jury trial that was already
under way. Forcing trial courts to make such a decision
necessarily favors the prosecution, as prosecutors and
courts can, and do, rely upon the current good faith
standard unbound by any notice requirement.
It does not appear that courts have paid much attention
to this procedural element of the Confrontation Clause
rights or focused on how much notice the government
affords defendants when it cannot find a witness. See, e.g.,
Hardy v. Cross, 565 U.S. 65 (2011); Crawford, 541 U.S.
36; Roberts, 448 U.S. 56; Barber, 390 U.S. 719; United
States v. Siddiqui, 235 F.3d 1318 (11th Cir. 2000). Yet by
simply insisting that prosecutors make a timely disclosure
of a witness’s potential absence, the Court can refocus
the lower courts and ensure that prosecutors are not
tempted to make insufficient efforts to locate a witness
knowing that they can rely on deposition testimony in lieu
of live examination. This clarified requirement will better
safeguard bedrock constitutional fair trial guarantees
as the Framers intended, while still acknowledging
“considerations of public policy and the necessities of the
case,” as the rule of necessity envisions. Mattox, 156 U.S.
at 243.
Impor tantly, adopting Bra dy’s timely notice
requirement in the Confrontation Clause context will
also preserve the delicate balance between the rights of
the defense and the government’s ability to effectively
prosecute a case established by the rule of necessity. The
Court’s imposition of a timely notice obligation—one that
the government can readily satisfy—would enhance the
good faith standard and preserve the Sixth Amendment
as the Founders intended.

17
CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully submitted,
Kevin B. Muhlendorf
Counsel of Record
Bert W. Rein
Tatiana Sainati
Michelle B. Bradshaw
Wiley Rein LLP
1776 K Street NW
Washington, DC 20006
(202) 719-7000
kmuhlendorf@wileyrein.com
Counsel for Amicus Curiae The
Constitution Project at the Project
On Government Oversight

